No. 21-207

 

 

IN THE

Supreme Court of the United States

BEHRMAN CAPITAL IV, L.P., BEHRMAN BROTHERS IV
L.L.C. AND MipCaP FINANCIAL INVESTMENT, L.P.,
PETITIONERS

Vv.

THOMAS E. REYNOLDS, TRUSTEE

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

REPLY BRIEF OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,837 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 8, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
